     Department of Homeland Security




  FEMA Public Assistance Grant Funds Awarded to 

   City of Miami Beach, Florida – Hurricane Wilma 





DA-12-04                                        Januay 2012

                                                                           Office ofInspector General

                                                                          U.S. Department of Homeland Security
                                                                          Washington, DC 20528




                                                                           Homeland
                                                                           Security
                                                 JAN       3 2012

MEMORANDUM FOR:

                                                                                  gency

FROM:                                                rd
                                      Actin Assistant Inspector neral
                                      Office of Emergency Management Oversight

SUBJECT:                              FEMA Public Assistance Grant Funds Awarded to
                                      City ofMiami Beach, Florida - Hurricane Wilma
                                      FEMA Disaster Number 1609-DR-FL
                                      Audit Report Number DA-12-04

We audited public assistance funds awarded to the City of Miami Beach, Florida, (City) (FIPS
Code 086-45025-00). Our audit objective was to determine whether the City accounted for and
expended Federal Emergency Management Agency (FEMA) grant funds according to federal
regulations and FEMA guidelines.

The City received a public assistance award of $8.5 million from the Florida Division of
Emergency Management (State), a FEMA grantee, for damages resulting from Hurricane Wilma,
which occurred in October 2005. The award provided 100% FEMA funding for 25 large
projects and 33 small projects. l

We reviewed costs totaling $4.5 million claimed under four large projects. We also reviewed
seven small projects totaling $123,406 to determine whether the City completed the authorized
scopes of work (See Exhibit, Schedule of Audited Projects). The audit covered the period from
October 24,2005, to February 1,2011, during which the City received $2.2 million ofFEMA
funds under the projects reviewed. At the time of the audit, work under the projects was
complete, but the City had not submitted a final claim on project expenditures to the State.

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our


1 Federal   regulations in effect at the time of Hurricane Wilma set the large project threshold at $57,500.
audit objective. We conducted this audit according to the statutes, regulations, and FEMA
policies in effect at the time of the disaster.

We interviewed FEMA, State, and City officials; reviewed judgmentally selected samples of
claimed costs (generally based on dollar value); reviewed the City’s procurement policies and
procedures; reviewed applicable federal regulations and FEMA guidelines; and performed other
procedures considered necessary to accomplish our audit objective. We did not assess the
adequacy of the City’s internal controls applicable to its grant activities because it was not
necessary to accomplish our audit objective. However, we gained an understanding of the City’s
method of accounting for disaster-related costs and its policies and procedures for administering
activities provided for under the FEMA award.


                                     RESULTS OF AUDIT

The City did not account for costs on a project-by-project basis as required. We also identified
$154,922 of questioned costs resulting from duplication of benefits, and unsupported and
ineligible project charges.

Finding A: Project Accounting

The City did not account for large projects on a project-by-project basis. According to Code of
Federal Regulations (CFR) Title 44, Part 13.20(a)(2), fiscal control and accounting procedures of
a state and its subgrantees must be sufficient to permit the tracing of funds to a level of
expenditures adequate to establish that such funds have not been used in violation of the
restrictions and prohibitions of applicable statutes. Further, 44 CFR 206.205(b) requires that
large project expenditures be accounted for on a project-by-project basis.

The City commingled disaster-related receipt and expenditure transactions with non-disaster
transactions in its general account, with no separate accounting establishing project balances,
receipts, or expenditures. As a result, total costs claimed under individual projects could not be
readily identified, thus increasing the risk of expenditures being duplicated among projects.

Finding B: Duplication of Benefits

The City claimed $70,292 under Project 6513 for debris removal activities on federal-aid roads
that are the responsibility of the Federal Highway Administration. Section 312 of the Robert T.
Stafford Disaster Relief and Emergency Assistance Act, as amended, prohibits duplicate benefits
such as the use of public assistance funds for damages covered under any other program,
insurance, or any other source. The City requested Federal Highway Administration
reimbursement for the expenditures and planned to have FEMA reduce project costs at closeout
for such activity. At the completion of our audit, the costs remained in the City’s claim.
Therefore, we question the $70,292 claimed for activities that are the responsibility of another
federal agency.




                                                 2

Finding C: Supporting Documentation

The City’s claim under Project 6204 contained $70,068 of unsupported costs. It claimed
$70,068 for travel expenses of contract debris monitoring personnel, but did not have source
documentation such as hotel bills, car rental invoices, or mileage logs to support the costs.
Cost Principles at 2 CFR 225, Cost Principles for State, Local, and Indian Tribal Governments,
Appendix A, Section C.1.j, state that a cost must be adequately documented to be allowable
under federal awards.2 Therefore, we question the $70,068 of unsupported costs.

Finding D: Incomplete Small Project Work

The City did not complete work totaling $14,562 under Project 7541. According to 44 CFR
206.205(a), failure to complete authorized work under a small project may require that the
federal payment be refunded. FEMA awarded $23,628 under Project 7541 for the repair of 10
police vehicles that were damaged by fallen trees. However, the City repaired eight of the
damaged vehicles at a cost of $9,066 and opted to auction two vehicles due to their low salvage
value. Therefore, we question $14,562 ($23,628 less $9,066).


                                            RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

           Recommendation #1: Instruct the City, for future declarations, to account for FEMA
           funds on a project-by-project basis as required by federal regulations (finding A).

           Recommendation #2: Disallow $70,292 of costs that are ineligible because they are a
           duplication of benefits (finding B).

           Recommendation #3: Disallow $70,068 of unsupported charges (finding C).

           Recommendation #4: Disallow $14,562 of ineligible costs claimed for work not
           implemented under Project 7541 (finding D).


                 DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with City, State, and FEMA officials during our audit. We also
provided written summaries of our findings and recommendations in advance to these officials
and discussed them at an exit conference held on September 13, 2011. City officials generally
agreed with findings A, B, and D and the related recommendations, but disagreed with finding C.
They said they are developing a response to FEMA, and have requested source documentation
from the contractor for costs questioned under finding C.



2
    OMB Circular A-87, in effect at the time of the disaster, was relocated to 2 CFR 225 on August 31, 2005.


                                                           3

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this report
will be posted to our website, with the exception of sensitive information identified by your
office. Significant contributors to this report were David Kimble, William Johnson, and
Oscar Andino.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
David Kimble at (404) 832-6702.


cc:    	Administrator, FEMA
       Executive Director, FEMA Florida Recovery Office
       Audit Liaison, FEMA Region IV
       Audit Liaison, FEMA (Job Code G-12-001)
       Audit Liaison, DHS




                                               4

                                                                               EXHIBIT
                           Schedule of Audited Projects 

                       October 24, 2005, to February 1, 2011 

                          City of Miami Beach, Florida 

                       FEMA Disaster Number 1609-DR-FL 


                           Project   Ineligible   Unsupported    Total Costs
   Project Number          Funding     Costs         Costs       Questioned    Finding
Original Audit Scope
         2484          $   313,788   $       0       $      0     $       0
         5505              296,789           0              0             0
         6204              573,125           0         70,068        70,068      C
         6513            3,352,077      70,292              0        70,292      B
       Subtotal        $ 4,535,779     $70,292       $ 70,068     $ 140,360

Small Projects Added
to Audit Scope
          4831         $    19,544    $     0            $  0     $      0
          5484               8,691          0               0            0
          5774              14,838          0               0            0
          6645              21,500          0               0            0
         7298               16,905          0               0            0
         7541               23,628     14,562               0       14,562       D
         8791               18,300          0               0            0
      Subtotal         $ 123,406     $ 14,562        $      0    $ 14,562
    Grand Total        $ 4,659,185    $84,854        $ 70,068    $ 154,922




                                          5

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
